No. 21-184
IN THE

Supreme Court of the United States
KEVIN BYRD,
Petitioner,
v.
RAY LAMB,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Motion for Leave to File contains 407 words and the Brief of the American Civil
Liberties Union, Cato Institute, DKT Liberty Project, Goldwater Institute, Law
Enforcement Action Partnership, and New Civil Liberties Alliance as Amici Curiae in
Support of Petitioner contains 5,793 words and complies with the word limitations
established by this Court’s Rules 37.5 and 33.1(g)(x).
Dated: September 9, 2021

/s/ Theane Evangelis
Theane Evangelis

